IN THE SUPREME COURT OF THE UNITED STATES

No, 20-730

LINDSAY R. COOPER, ET AL., PETITIONERS
v,

TOKYO ELECTRIC POWER CoMPANY HOLDINGS, INC.,
ETAL.

CERTIFICATE OF SERVICE

Thereby certify that on February 26, 2021, I caused three (3) copies of General Electric
Company’s brief in opposition in the above-captioned case to be served by overnight
delivery on the following counsel:

Howard Moore Jr. Mark Remy Yohalem

Moore & Moore Munger, Tolles and Olson LLP

1569 Solano Ave # 204 350 South Grand Avenue, 50th Floor
Berkeley, CA 94707 Los Angeles, CA 90071

(510) 542 7172 (218) 683-9188

moorlaw@aol.com mark.yohalem@mto.com

Counsel for petitioners Counsel for respondent Tokyo Klectric

Power Company Holdings, Inc.
The following email addresses have also been served electronically:

moorlaw@aol.com
mark.vohalem@mto.com

 

Arnold & Porter Kaye Scholer LLP
601 Massachusetts Ave., NW
Washington, DC 20001

(202) 942-6581

sally. pei@arnoldporter.com
